No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
OMERO NINO-GUERRERO,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Northern District
of Texas

APPENDIX A

Case: 19-10994

Document: 00515424272

Page: 1

Case 5:19-cr-00041-H-BQ Document 48 Filed 05/21/20

Date Filed: 05/21/2020
Page 1 of 2 PageID 139

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10994
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
April 29, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
OMERO NINO-GUERRERO,

Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-41-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Omero Nino-Guerrero appeals the 21-month term of imprisonment and
three-year term of supervised release imposed following his guilty plea
conviction for illegal reentry after deportation. See 8 U.S.C. § 1326(a), (b)(1).
According to Nino-Guerrero, § 1326(b)’s enhanced penalty provisions for prior
convictions are unconstitutional to the extent prior convictions are treated as
sentencing factors rather than as elements of the offense that must be alleged

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10994

Document: 00515424272

Page: 2

Case 5:19-cr-00041-H-BQ Document 48 Filed 05/21/20

No. 19-10994

Date Filed: 05/21/2020
Page 2 of 2 PageID 140

in the indictment and proved to a jury beyond a reasonable doubt. NinoGuerrero correctly concedes that his argument is foreclosed by AlmendarezTorres v. United States, 523 U.S. 224 (1998), but he raises the issue to preserve
it for further possible review. See United States v. Wallace, 759 F.3d 486, 497
(5th Cir. 2014); United States v. Pineda-Arrellano, 492 F.3d 624, 625-26 (5th
Cir. 2007).
The Government has filed an unopposed motion for summary affirmance
and, alternatively, seeks an extension of time to file its brief. Because the issue
is foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969). Accordingly, the Government’s
motion for summary affirmance is GRANTED, the Government’s alternative
motion for an extension of time to file a brief is DENIED, and the judgment of
the district court is AFFIRMED.

2

APPENDIX B

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19

Page 1 of 7 PageID 91

Uurrep Srarps DrsrRrcr Counr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

LINITED STATES OF AMERICA

5

JUDGMENT IN A CRIMINAL CASE

s
5

I

pleaded guilty to count(s)

5

USMNumber: 42491-177
David E Sloan

I

THE DEFENDANT:
I

Case Number: 5: 19-CR-00041-H-BQ(1)

I

OMERO NINO-GUERRERO

x

5

Defendant-s Attomey

I ofthe indictment filed March 20.2019.

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court

tr

was found guilty on count(s) after a plea ofnot guilty

The defendant is adjudicated guilty ofthese offenses:

Title & Section / Nature of offense

Offense Ended

Count

8 U.S.C. $ 1326(bXl) and 6 U.S.C. $$ 202(3). (4). and 557 Illegal Re-Entry After Deportation

03/08/2019

I

The defendant is sentenced as provided in pages 2 through 7 ofthisjudgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

E The defendant has been found not guilty on count(s)
E Coun(s) tr is E Remaining count(s) are dismissed on the motion ofthe United States
It is ordered that the defendant must notiry the United States attomey for this district within 30 days ofany change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by thisjudgment are fully paid. If
ordered to pay restitution, the defendant must notiry the court and United States attorney of material changes in economic
circumstances.

Ausust 30, 2019
Datc of lmposilion of ludgment

f Judge

s

es Weslev Hendrix
nited States District Judge
Nanle and Titlc ol Judge

Aueust 30, 2019
Dale

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19
AO 2458 (Rev. 1XN 2/18) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 2 of 7 PageID 92

Criminal Case

Judgment-Pagc2of7

OMERONINO-GUERRERO
5:19-CR-00041-H-BQ(l)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bueau ofPrisons to be imprisoned for a total term

2l

months as lo count

l.

A

The court makes the following recommendations to the Bureau ofPrisons: Incarceration at FCI Big Spring, Texas.

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

!

at

as

tr p...

a.m.

on

notified by the United States Marshal

The defendant shall surrender for service of sentence at the institution designated by the Bureau ofPrisons:

E
E
tr

before 2 p.m, on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RETURN
I have executed thisjudgment

as

follows

Defendant delivered on

at

to

with

a

certified copy ofthisjudgment.

LNITED

S

IATES MARSI]AI-

Bv
DEPUTY UNI'TED STATES MARSHAL

ot

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19
AO 2458 (Rev. 1XN 2/18) Judgment in a Criminal

DEFENDANT:

CASENUMBER:

Page 3 of 7 PageID 93

Ca^se

Judgment -- Page 3

OMERONINO-GUERRERO
5:19-CR-00041-H-BQ(l)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of

:

three (3) years.

MANDATORY CONDITIONS

L
2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refiain from any unlawful use ofa conholled substance. You must submit to one drug test within l5 days ofrelease
fiom imprisonment and at least two periodic drug tests thereafter, as determined by the court.

!

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abus€. (check d applicoble)

4

E

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 3663A, or any other statute authorizing a sentence
of restitution. (check if applicable)

5

X
D

You must cooperate in the collection of DNA as directed by the probation officer. (check ifapplicable)

6

7

!

You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. g 20901, et
seq.) as directed by the probation officer, the Bureau ofPrisons, or any state sex offender registation agency in which
you reside, work, are a student, or were convicted of a qualifting offense. (check if applicable)
You must participal€ in an approved program for domestic violence. (creck ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

of7

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19

Page 4 of 7 PageID 94

AO 2458 (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment-Page4of7

OMERO NINO-GUERRERO
5: I9-CR-0004l -H-BQ( I)

STANDARD CONDITIONS OF SUPERVISION
As part ofyour supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identiry the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federaljudicial district where you are authorized to reside within 72 hours ofyour
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a differenl time
frame.
2. After initially reporting to the probation ofTice, you will receive instructions ftom the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without fint getting permission llom
the court or the probation ofncer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notifo the probation offrcer at least l0 days before the change. If notifing
the probation officer in advance is not possible due to unanticipated circumstances, you must notiry the probation oflicer within 72
hours ofbecoming aware ofa change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by th€ conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type ofemployment, unless the probation officer excuses you from
doing so. lf you do not haye full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. [fyou plan to change where you work or an],thing about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least l0 days before the change. If notirying the probation officer at least lO
days in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without firsl getting the permission ofthe

probation officer.
9. Ifyou are arested or questioned by a law enforcement officer, you must notiry the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., an).thing that
was designed, or was modified for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).
I [. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

without flrst getting the permission ofthe court.
12. Ifthe probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notiry the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
[3. You must follow the instructions ofthe probation officer related to the conditions ofsupervision.

U.S. Probation Oflice Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy ofthis judgment containing these conditions. I understand additional information regarding these
conditions is available at www.fxnp.uscourts.gov.
Defendant's Signature

Date

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19
AO 2458 (Rcv. TXN 2/18) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 5 of 7 PageID 95

Criminal Case

Judgment-Page5of7

OMERO NINO-GUERRE,RO
5:19-CR-00041-H-BQ(1)

SPECIAL CONDITIONS OF SUPERVISION
if

I

The defendant shall not illegally re-enter the United States,
departure.

2

The defendant shall abstain from the use ofalcohol and all other intoxicants during the term

supervision.

deported, removed, or allowed voluntary

of

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19
AO 2458 (Rev. TXN 2/18) Judgrnent in

DEFENDANT:

CASENUMBER:

a

Page 6 of 7 PageID 96

Criminal Case

Judgment-Page6of7

OMERONINO-GUERRERO
5:19-CR-00041-H-BQ(l)

CRIMINAL MONETARY PENALTIES
The defendant must

a

the total criminal m
Assessment

TOTALS

D
tr

ies under the schedule

of

ents

JVTA Asscssm€nt*

Fine
s.00

s100.00

Restitution

The determination of restitution is defened until
An Amended Judgnent in a Criminal Case (AO215C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

lfthe

defendant makes a panial payment, each payee shall reccive an approximately proportioned payment. However. pursuant
U.S.C. $ 369(i). all nonfederal victims must be paid before the United States is paid.

tr
tr
tr

s.00

Restitution amount ordered pursuant to plea agreement

to l8

S

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date ofthe judgment, pursuant to l8 U.S.C. S 3612(0. All ofthe paymenr options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. g 3612(g).
The court determined that the defendant does not have lhe ability to pay interest and it is ordered that:

I
E

the inlerest requirement is waived for
the interest requirement for

the

the

E fine
! fine

X
tr

reslitution
restitution is modified as follows:

* Justice for Victims ofTrallicking Act of2015, Pub. L. No. 114-22
* * Findings for the total amount of losses are required under Chapters 109,4. I 10, I l0A. and I l3A of Title l8 for
September ll. 1994. but before April 23. 1996.

ofTenses committed on or after

Case 5:19-cr-00041-H-BQ Document 40 Filed 08/30/19

Page 7 of 7 PageID 97

AO 2458 (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgment -- Page 7

of7

OMERONINO-GUERRERO
5:19-CR-00041-H-BQ(l)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows

A tr

Lump sum payments

!

not later

tr

in

B E
C tr

of$

due immediately, balance due

than

, or

accordance tr C,

tr D,

Payment ro begin immediately (may be combined

with f]

or

C,

_

(e.9., months or years), to commence
a

tr

F below; or

tr

D,

or

tr

_

F below); or

over a period

of

(e.g., 30 or 60 days) after the date ofthis judgment; or

Payment in equal 20 (e.g., weeHy, monthly, quarterly) installments ofS

to

E tr

E,

(e.g., weekly, monthly, quarterb,) installments ofS

Payment in equal

(e.g., montlu or years), to commence

D tr

tr

over

a

period

of

(e.9., 30 or 60 doys) after release from imprisonment

term ofsuperYision; or

(e.g.. 30 or 60 doys) after release
Payment during the term ofsupervised release will commence within
payment
plan
imprisonment.
The
will
the
based
on
an
assessment
ofthe
defendant's ability to pay at that
from
court
set

timel or
F

X

Special instructions regarding the payment ofcriminal monetary penalties:

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count l, which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to the clerk ofthe court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

E

Joint and Several

for Defendant and Co-Defendant Names and Case Numbers (including defendant number),Total Amo]unt, Joint and
Several Amount, and conesponding payee, ifappropriate.
See above

D

Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

tr
tr
!

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: ( I ) assessment, (2) restitution pincipal. (3) restitution interes! (4) fine principal.
(5) fine interest, (6) community restitution. (7) JVTA Assessment. (8) penalties. and (9) costs. including cost ofprosecution and coun costs

